August 29, 2000

JOHN M. NOLAN
DEPUTY POSTMASTER GENERAL

SUBJECT:	 Transmittal of Audit Report - Use of Chauffeur-Driven Vehicles by Postal
          Service Executives (Report Number TR-AR-00-010)

This report presents the results of our audit of the use of chauffeur-driven vehicles by
Postal Service executives. Our audit disclosed over 520 instances involving nine
executives where official vehicles and chauffeurs were improperly used.

We recommended that the deputy postmaster general provide control and oversight
over the use of administrative vehicles to ensure compliance with federal law and postal
policy; reissue guidance emphasizing that chauffeurs are not authorized for field
locations and are to be used only for official headquarters functions; and ensure
development and use of daily logs that capture all of the information required in
management instruction FM-530-95-1.

Management agreed with our recommendations and the actions taken or planned
should correct the issues discussed in this report. Management’s comments, in their
entirety, are included in the appendix.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Joseph Oliva, director, Transportation, or me at
(703) 248-2300.



Debra S. Ritt
Acting Assistant Inspector General
 for Business Operations

Attachment

cc: 	 Richard J. Strasser Jr.
      Jayne E. Schwarz
      John R. Gunnels
Use of Chauffeur-Driven Vehicles                                  TR-AR-00-010
 by Postal Service Executives


                                   TABLE OF CONTENTS

Executive Summary
                                                    i

Part I

Introduction 
                                                       1

   Background                                                        1

   Objective, Scope, and Methodology                                 2


Part II

Audit Results

   Field Compliance with Federal Law and Policy on Vehicles and      3

   Chauffeurs 

   Headquarter Compliance with Law and Policy on Vehicles and        3

   Chauffeurs 

   Recommendations                                                   4
   Management’s Comments                                             4

   Evaluation of Management’s Comments                               5


Appendix Management’s Comments                                       6

Use of Chauffeur-Driven Vehicles                                                  TR-AR-00-010
 by Postal Service Executives


                                   EXECUTIVE SUMMARY
 Introduction                  This report presents our findings regarding the use of
                               chauffeur-driven vehicles by Postal Service executives
                               (Project Number 00PA024TR000). This audit was initiated
                               based on an Office of Inspector General investigation that
                               disclosed one executive inappropriately used an official
                               vehicle and chauffeur. The purpose of this audit was to
                               determine if other similar instances of improper use of
                               vehicles and chauffeurs occurred.

 Results in Brief              Our audit disclosed over 520 instances involving one field
                               and eight headquarters executives where official vehicles
                               and chauffeurs were improperly used. Approximately 460 of
                               the 520 instances were attributed to one field executive who
                               used the vehicle from June 1996 to October 1998. The
                               remaining instances occurred at headquarters between
                               June 1998 and February 2000. Although federal law and
                               policy restrict the use of vehicles and chauffeurs to official
                               business, the nine executives used vehicles and chauffeurs
                               to travel between home and office. These misuses
                               continued for prolonged periods because controls over
                               vehicle use were either inadequate or nonexistent. These
                               control weaknesses also prevented us from determining the
                               extent to which vehicles and chauffeurs may have been
                               misused in the field.

 Summary of                    Because the issues identified are potential violations of
 Recommendations               federal law, we believe stronger controls should be
                               implemented to minimize the risk that vehicles could be
                               misused, and to more easily identify misuse if it occurs.
                               Specifically, we recommend that the deputy postmaster
                               general provide control and oversight over the use of
                               administrative vehicles to ensure compliance with federal
                               law and postal policy. We also recommend that the deputy
                               postmaster general reissue guidance emphasizing that
                               chauffeurs are not authorized for field locations and are to
                               be used only for official headquarters functions. He should
                               also ensure development and use of daily logs that capture
                               all of the information required in management instruction
                               FM-530-95-1.

 Summary of                    Management agreed with our recommendations and stated
 Management's                  that that they would publish an updated management
 Comments                      instruction emphasizing law and postal policy;


                                                i
Use of Chauffeur-Driven Vehicles                                                 TR-AR-00-010
 by Postal Service Executives


                               management’s responsibility to enforce the proper use of
                               vehicles; the responsibility of individual employees to
                               comply with policy; and procedures for logging vehicle
                               usage.

 Overall Evaluation of         Management’s comments are responsive to our findings
 Management's                  and recommendations. We believe that the actions, both
 Comments                      taken and planned, should correct the issues identified in
                               our report.




                                                ii
Use of Chauffeur-Driven Vehicles                                                            TR-AR-00-010
 by Postal Service Executives


                                             INTRODUCTION
    Background 	                    Title 31 U.S. Code Section 1344 identifies individuals who
                                    are authorized to use official vehicles between their home
                                    and place of employment. Within the Postal Service, only
                                    the postmaster general is authorized such transportation.
                                    Other individuals may be provided transportation to and
                                    from home in certain situations when the trip is performed in
                                    conjunction with official travel. The law requires the heads
                                    of federal agencies to establish regulations and
                                    implementing instructions controlling transportation between
                                    home and work and to maintain logs and other records
                                    necessary to establish the official purpose of such
                                    transportation.

                                    To ensure compliance with the law, on August 28, 1995, the
                                    Postal Service issued a management instruction1 identifying
                                    officials by position authorized to use vehicles, establishing
                                    the conditions and circumstances for vehicle use, and
                                    identifying recordkeeping requirements. The management
                                    instruction also authorized the use of vehicles between
                                    fieldwork locations and home with proper approval. With
                                    respect to recordkeeping, the management instruction
                                    requires a daily log be maintained documenting the:

                                    •	 Name and title of the operator.
                                    •	 Circumstances necessitating home to work
                                       transportation.
                                    •	 Name and title of the person authorizing home to work
                                       transportation.
                                    •	 Date, location, destination, and duration of vehicle use.

                                    In addition, Postal Service Headquarters provides
                                    chauffeurs to transport executives and the Board of
                                    Governors for official business. However, with the
                                    exception of the postmaster general, chauffeurs may not
                                    provide service between home and work.

                                    At headquarters, the facilities services manager has
                                    responsibility for tracking and reporting vehicle and
                                    chauffeur use. In the field, vehicles are permanently
                                    assigned to executives and other field managers. The chief
                                    financial officer has overall responsibility for developing

1
    FM-530-95-1, “The Use of Official Vehicles for Transportation Between Home and Work.”



                                                         1
Use of Chauffeur-Driven Vehicles                                                  TR-AR-00-010
 by Postal Service Executives


                               policies and procedures to ensure the Postal Service
                               complies with federal laws on vehicle use.

 Objective, Scope, and         Our objective was to determine the extent to which
 Methodology                   executives were complying with law and postal policy
                               governing the use of official vehicles and chauffeurs. To
                               accomplish this objective, we conducted work at
                               headquarters and four judgmentally selected postal areas-
                               Great Lakes, Mid Atlantic, Southeast, and Southwest. We
                               reviewed federal law and postal policies on use of vehicles
                               and chauffeurs, interviewed Postal Service officials and
                               chauffeurs, and analyzed headquarters transportation logs.
                               Instances where transportation logs indicated the
                               destination was home were matched to travel vouchers to
                               determine if the trips were in conjunction with authorized
                               travel. We did not interview executives who inappropriately
                               used vehicles or chauffeurs. Instead, we forwarded this
                               information to appropriate Postal Service officials under
                               separate cover for appropriate administrative or disciplinary
                               action.

                               Our audit was conducted from March through August 2000
                               in accordance with generally accepted government auditing
                               standards and included tests of internal controls, as were
                               considered necessary under the circumstances.




                                                2
Use of Chauffeur-Driven Vehicles                                                                  TR-AR-00-010
 by Postal Service Executives


                                          AUDIT RESULTS
    Field Compliance              Our audit disclosed one district manager used an official
    with Federal Law and          vehicle and chauffeur to drive between home and work for
    Policy on Vehicles            over two years. His chauffeur told us that, beginning in
    and Chauffeurs                June 1996 and continuing until October 1998, he served as
                                  the "executive assistant" to the district manager. During this
                                  time, he routinely drove the district manager between his
                                  residence and office on a daily basis. The chauffeur also
                                  stated that, on occasion, he and the district manager made
                                  official stops in route to and from the office, but that daily
                                  service was provided regardless of whether such stops
                                  were made.

                                  Such use violated both federal law2 and policy3 prohibiting
                                  home to work transportation. Further, according to 31 U.S.
                                  Code § 1349, employees willfully misusing vehicles shall be
                                  suspended for at least one month, or summarily removed
                                  from office. The use of a chauffeur was also in violation of
                                  postal policy because no such use had been authorized for
                                  officials at field locations.

                                  We were unable to identify other instances of improper use
                                  because field managers did not always maintain the daily
                                  vehicle use logs required by postal policy. While, in some
                                  cases, vehicle time records4 were maintained, a separate
                                  log reflecting information on destination, circumstances
                                  requiring home-to-work transportation or authorization for
                                  exceptions were not maintained. The lack of recordkeeping
                                  and oversight of vehicle use is a serious internal control
                                  weakness preventing the Postal Service from ensuring its
                                  compliance with federal law.

    Headquarters                  Our audit also identified eight headquarters officers who
    Compliance with Law           were chauffeured between home and work on 63 occasions
    and Policy on                 between June 1998 and February 2000. As shown by the
    Vehicles and                  following table, the number of chauffeured trips for each of
    Chauffeurs                    the eight officers ranged from 1 to 41. Details regarding
                                  each of the 63 cases were provided to appropriate Postal
                                  Service officials under separate cover.


2
  31 U.S. Code §1344
3
  Management Instruction FM-530-95-1, “The Use of Official Vehicles for Transportation Between Home and Work,” 

and the postmaster general’s March 5, 1995, memorandum. 

4
  Form 4570, Vehicle Time Record. 




                                                       3
Use of Chauffeur-Driven Vehicles                                                  TR-AR-00-010
 by Postal Service Executives



                                                                  Number of
                                                    Executive       Trips
                                                       1              1
                                                       2              1
                                                       3              1
                                                       4              2
                                                       5              4
                                                       6              6
                                                       7              7
                                                       8             41
                                                      Total          63
                               In 4 of the 63 instances, only the spouses of the executives
                               were chauffeured from home to office. This was done even
                               though the executives were not in a travel status. In
                               addition to trips made by executives and their spouses,
                               chauffeurs were used to deliver cakes and packages on at
                               least 14 occasions.

                               As discussed above, willful noncompliance carries a penalty
                               of at least a one-month suspension or removal from office.
                               These violations were allowed to continue because controls
                               over vehicle use were either inadequate or nonexistent.
                               Although daily logs were maintained, circumstances
                               supporting home to work transportation were not
                               documented. Further, logs were not reviewed to ensure
                               compliance with federal law and postal policy on vehicle
                               use. Improved recordkeeping and greater oversight is
                               needed to ensure the Postal Service complies with federal
                               law and its own policies.

 Recommendation 	              Because the issues identified are potential violations of
                               federal law, we recommend that the deputy postmaster
                               general:

                               1. Provide control and oversight over the use of
                                  administrative vehicles to ensure compliance with
                                  federal law and postal policy.

 Management’s 	                Management agreed with our recommendation. They
 Comments 	                    stated that that they would publish an updated management
                               instruction emphasizing law and postal policy;
                               management’s responsibility to enforce the proper use of
                               vehicles; the responsibility of individual employees to



                                                4
Use of Chauffeur-Driven Vehicles                                                  TR-AR-00-010
 by Postal Service Executives


                               comply with policy; and procedures for logging vehicle
                               usage.

 Recommendation                2. Reissue guidance emphasizing that chauffeurs are not
                                  authorized for field locations and are to be used only for
                                  official headquarters functions.

 Management’s                  Management agreed with our recommendation. They
 Comments                      stated that they would address the issue in their updated
                               management instruction.

 Recommendation                3. Develop and enforce the use of daily logs that capture all
                                  of the information required in Management Instruction
                                  FM-530-95-1.

 Management’s 	                Management agreed with our recommendation. They
 Comments 	                    stated that policy concerning the use of vehicle logs would
                               be included in their updated management instruction, and
                               emphasized that it was the operating manager’s
                               responsibility to ensure compliance.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. We believe that the actions, both
 Comments                      taken and planned, should correct the issues identified in
                               our report.




                                                5
Use of Chauffeur-Driven Vehicles                      TR-AR-00-010
 by Postal Service Executives


                    APPENDIX. MANAGEMENT’S COMMENTS




                                   6
Use of Chauffeur-Driven Vehicles       TR-AR-00-010
 by Postal Service Executives




 Major Contributors to
 This Report




                                   7
